No. 19-1069
IN THE

Supreme Court of the United States
TAKEDA PHARMACEUTICAL COMPANY LIMITED,
TAKEDA PHARMACEUTICALS USA, INC., AND ELI
LILY AND COMPANY,
Petitioners,
v.
PAINTERS AND ALLIED TRADES DISTRICT
COUNCIL 82 HEALTH CARE FUND, ET AL.,
Respondents.
CERTIFICATE OF SERVICE

I, R. Brent Wisner, a member of the Bar of this Court, certify that on this 19th day of
March 2020, the attached letter was sent by first class mail, postage prepaid, to:
Jonathan S. Franklin
Peter B. Siegal
NORTON ROSE FULBRIGHT US LLP
799 9th Street, N.W., Suite 1000
Washington, D.C. 20001
(202) 662-4663
Counsel for Petitioners
TAKEDA PHARMACEUTICAL COMPANY
LIMITED, TAKEDA PHARMACEUTICALS
USA, INC., AND ELI LILY AND COMPANY
I further certify that all parties required to be served have been served.

Brent Wisner
BAUM HEDLUND ARISTEI & GOLDMAN PLC
10940 Wilshire Boulevard, 17th Floor
Los Angeles, CA 90024
Counsel of Record for Respondents

